                                 EVALUATION




 BUREAU OF LAND MANAGEMENT’S
 BRANCH OF NATIONAL ACQUISITIONS




Report No.: C-EV-BLM-0007-2011   September 2013
               OFFICE OF
              INSPECTOR GENERAL
               U.S.DEPARTMENT OFTHE INTERIOR


                                                                                           SEP   3~   0 '2013
Memorandum

To:             Neil Kornze
                Principal Deputy Director, Bureau of Land Management

From:           Kimberly Elmore ~~ ~......__
                Assistant Inspector General for Audits, Inspections, and Evaluations

Subject:        Final Evaluation Report - Bureau of Land Management's
                Branch ofNational Acquisitions, National Operations Center
                Report No. C-EV-BLM-0007-2011

       This report transmits the findings of our evaluation of the Branch of National
Acquisitions (Acquisitions), National Operations Center (NOC), Bureau of Land Management
(BLM). Our objective was to determine whether NOC is issuing and administering contracts
according to the Federal Acquisition Regulation (FAR) and related policies.

Background

        We evaluated Acquisition's contracting and contract administration activities because of
concerns identified in the course of other Office oflnspector General work. Specifically, our
audit of a systems development contract administered by Acquisitions (part of the National
Business Center prior to 2007) found that Acquisitions had not administered many aspects of that
contract according to the FAR or BLM procurement policies. For that contract, we found that
Acquisitions-

        •   did not follow the FAR when purchasing from a third party;
        •   did not ensure that invoiced labor hours were reconciled to an approved statement of
            work;
        •   paid invoices for costs incurred outside the contract period of performance;
        •   paid invoices for costs incurred in excess of the contract agreement amount;
        •   did not have documentation for any legal review of the contract;
        •   did not have documentation for any review of past performance;
        •   did not maintain the original statement of work in the contract file;
        •   did not maintain subcontractor cost and pricing data in the contract file; and
        •   did not publish sole-source task orders as required.

       Because of these deficiencies and concerns identified by our Recovery Oversight Office
about other contracts administered by Acquisitions, we examined six contract files dating from
2009 through 2011 (see Figure 1).

                         Office of Audits, Inspections, and Evaluations I Washington, DC
            Contract     Year Awarded                         Type of Contract
            Contract
                                2009           Firm Fixed Price / Sole Source
               A
            Contract
                                2010           Indefinite Delivery Indefinite Quantity
               B
            Contract
                                2010           Firm Fixed Price
               C
            Contract
                                2010           Time and Materials
               D
            Contract
                                2010           Firm Fixed Price
               E
            Contract
                                2011           Cost Reimbursement
               F

Figure 1. Contract files reviewed. Contractor and contract names are intentionally redacted.

Findings

        We found issues in each of these contracts. Our findings include missing and incomplete
documentation and improper procedures (see Attachment 1). Based on our interviews with
Acquisitions’ staff and others involved in contract monitoring, we attribute the issues identified
to four underlying causes: 1) inadequate documentation of procedures and standards, 2) poor
understanding of roles and responsibilities by contracting officers’ representatives and project
officers, 3) inadequate review of contract files and actions taken, and 4) poor coordination
between parties responsible for contract monitoring. We issued a comprehensive Notice of
Potential Findings and Recommendations, including contract-by-contract findings, to
Acquisitions’ Branch Chief and the Division Chief of Business Services. We proposed four
recommendations to address the underlying causes of the problems we found. The NOC Director
responded with full concurrence to our recommendations and indicated that some corrective
actions are already underway, including training for contracting officers; development of written
instructions, guides, and templates; and implementation of a quarterly records reviews.

Missing or Incomplete Documentation

       Proper documentation is essential to contract administration; it is necessary for BLM to
enforce contract terms. During our evaluation, one interviewee in Acquisitions told us that 31
contract files, some of which pertain to open contracts, could not be located. Records for the six
contracts we selected were available, but some documentation was missing or incomplete. We
could not find the following documents in the records of one or more of the six contracts,
including—

        •    purchase requisitions;
        •    requests for proposal;


                                                                                                     2
       •   documentation of market research;
       •   documentation of cost and price analyses; and
       •   reviews of contractors’ accounting systems.

        We could not locate an independent U.S. Government estimate for two contracts, and for
a third contract, the estimate did not have supporting documentation. We also found that a
contract modification in one contract was not completed for a change in contracting officers, and
in another contract not all modifications had been signed. Additional evaluation work revealed
that important contract documents—such as statements of work, contracts, purchase requisitions,
and acquisition plans—were not signed for three of the contract files we reviewed. Further, one
contract had no progress reports maintained in the contract file, one contract file did not have all
of the supporting statements of work, and two other contracts had incomplete statements of
work.

Improper Procedures

       Improper procedures in contracting or contract administration could result in improper
payments (for unauthorized work, unrelated expenses, or work not actually performed) as well as
accounting discrepancies. Evidence of improper procedures included—

       •   a task order with terms that did not conform to the supporting blanket purchase
           agreement or General Services Administration price schedule;
       •   failure to track mileage charges under one contract;
       •   no evidence in one contract file that invoices and progress reports were reviewed
           prior to payments being made; and
       •   a line of accounting (account number) on a modification to deobligate funds from one
           contract that differed from the related purchase requisition.

       In addition, a BLM official told us that a BLM project officer requested that a contract be
modified—in effect, representing the contractor. The NOC Director acknowledged the incident
and informed us that the project officer and the contracting officer involved had been counseled.
Further, she stated that other contracting officers and contracting officers’ representatives were
provided guidance on how to properly pursue contract modifications.

        For one of the six contracts we selected for our evaluation, Acquisitions requested that
we perform a separate contract audit. After our audit questioned the contractor’s costs and
supporting documentation, BLM and the Office of the Solicitor negotiated an agreement that
resulted in the Government avoiding payment of $309,755 and included a full release of further
claims from the contractor.

Conclusion and Recommendations

        Acquisitions continues to face challenges in its contracting and contract administration
practices. Addressing these challenges would provide greater assurance that contracts are
awarded and administered properly.


                                                                                                   3
        In our draft evaluation report, we encouraged Acquisitions to act on the underlying
causes of the problems we had identified. We offered two recommendations to address the need
for NOC to document procedures and improve training on staff roles, responsibilities, and
limitations. In addition, we sought to improve record-keeping through two recommendations on
records management and periodic review of contract files. While our recommendations did not
directly address coordination between Acquisitions and project personnel, we believe that
implementing the four recommendations will indirectly improve coordination because all
involved will be better informed of their roles and will have appropriate access to contract-
related records.

        In response to our draft report, BLM affirmed the NOC’s concurrence with each of the
four recommendations. NOC officials then met with us and provided additional information on
corrective actions being taken. We summarize BLM’s response, and our analysis, below. (For
BLM’s complete response, see Attachment 2.) We have modified the wording of our
recommendations to align with BLM’s action plan while maintaining our overall intent. This
should facilitate implementation tracking (see Attachment 3).

       We recommend that the NOC Director:

       1. Create guidance documents or job aids to support the contract administration
          process. Guidance should outline the duties, responsibilities, and limitations for
          contracting officers, contracting officers’ representatives, and other project officers.
          Where appropriate, job aids should differentiate requirements for each major contract
          type.

          BLM’s Response: BLM concurs with this recommendation and stated that it “has
          developed templates and checklists outlining specific duties and responsibilities” and
          “is in the process of finalizing” standard templates, guides, and procedures. BLM set
          a completion target of October 2013.

          Office of Inspector General’s Analysis: We commend BLM’s efforts to improve
          contracting guidance and look forward to further progress. We consider this
          recommendation resolved but not fully implemented. The recommendation will be
          referred to the Assistant Secretary for Policy, Management and Budget for tracking
          its implementation.

       2. Expand and improve the training provided to contracting officers, contracting
          officers’ representatives, and project officers. Training should address the FAR’s
          principles as well as local procedures.

          BLM’s Response: BLM concurs with this recommendation and stated that it has
          “sponsored training classes tailored for the BLM acquisition workforce” and
          informed us of a number of pertinent topics recently addressed. In addition, NOC
          officials provided us evidence of the training announcements having been
          distributed to Acquisitions personnel (and others).



                                                                                                 4
           Office of Inspector General’s Analysis: We commend BLM’s efforts to improve
           its training program and to provide relevant training on a regular basis. We
           consider this recommendation resolved and implemented.

        3. Implement a records management plan for contract files to prevent contract file loss
           and to provide a reference, by contract type, of what documentation is required for a
           complete contract record. This could include a plan to capture documents
           electronically for more efficient search, retrieval, and review.

           BLM’s Response: BLM concurs with this recommendation and stated that it is
           developing standard operating procedures “to ensure that contract files are complete
           and have required documentation.” BLM set a completion target of October 2013.

           Office of Inspector General’s Analysis: We look forward to improved guidance for
           the management of contract-related records at the NOC. We consider this
           recommendation resolved but not fully implemented. The recommendation will be
           referred to the Assistant Secretary for Policy, Management and Budget for tracking
           its implementation.

        4. Perform periodic reviews to ensure that contract files are complete and that contract
           actions have been properly performed. Include a follow-up process to ensure
           corrective actions are taken when needed.

           BLM’s Response: BLM concurs with this recommendation and stated that an
           “internal review process was conducted for certain contracts” and that Acquisitions’
           contracts are now “subject to random reviews.” In addition, NOC officials provided
           us with evidence of a recent file review, its findings, and the actions that were
           prescribed to improve the records.

           Office of Inspector General’s Analysis: We commend BLM’s efforts to improve
           contract records management through internal review and follow-up. We consider
           this recommendation resolved and implemented.

        We acknowledge BLM’s actions toward improving contract administration. Improved
guidance, training, and reviews should help to strengthen contract oversight and reduce process
errors.

Scope

       We limited our evaluation to the six contracts noted in Figure 1. Selections were
judgmental, based upon the type of contract, modifications to the contract, and known problems
with certain types of contracts.

      We conducted this evaluation in accordance with the Quality Standards for Inspection
and Evaluation as put forth by the Council of Inspectors General on Integrity and Efficiency. We



                                                                                                   5
believe that the work we performed provides a reasonable basis for our conclusions and
recommendations.

Methodology

       As part of our evaluation, we—

       •   reviewed the FAR;
       •   reviewed BLM’s acquisition guidance;
       •   obtained a list of contracting officers and contracting officers’ representatives;
       •   obtained a list of employees with warrant authority at BLM and their level of
           authority;
       •   interviewed the NOC managers and Acquisitions’ staff;
       •   obtained a list of all the NOC contracts issued between October 1, 2009, and
           September 30, 2011;
       •   selected contracts for review; and
       •   reviewed six contract files.

              As summarized in Atttachment 3, we consider recommendations 1 and 3 to be
       resolved but not fully implemented. Recommendations 2 and 4 are resolved and
       implemented. No further response to the Office of Inspector General on this report is
       necessary.

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

       We appreciate the cooperation of BLM staff in completing this evaluation. If you have
any questions about this report, please contact me at 202-208-5745.

Attachments (3)




                                                                                                6
                                                                                   Attachment 1


Contracting Errors

Missing or Incomplete Information

                     No market research; no independent Government estimate; no
Contract A           supporting documentation for price analysis; no request for proposal;
                     incomplete statements of work.

                     Missing or incomplete funding documents; some contract modifications
                     not signed; no evidence that invoices and progress reports were
Contract B
                     reviewed prior to payment; no evidence of proper approval for travel
                     expenses.

Contract C           Progress reports not maintained in contract files.

                     No modification of contract when contracting officer assignment
Contract D
                     changed.

                     Estimate of contract did not have supporting documentation; no current
Contract E           rates or accounting system review were in effect; incomplete statements
                     of work; acquisition plans not signed.

                     Missing purchase requisitions; missing independent Government
Contract F
                     estimate; missing supporting statements of work.

Improper Procedures

Contract A           None identified.

                     No evidence of review for invoices and progress reports prior to
Contract B
                     payments.

                     Poor coordination when handing off from one contracting officer to
Contract C           another; billing for time-and-materials contract rather than firm-fixed-
                     price contract.

                     No one tracked mileage charges; task order did not conform to blanket
Contract D
                     purchase agreement terms.

Contract E           None identified.

                     Line of accounting on a modification differed from the related purchase
Contract F
                     requisition.




                                                                                                7
                                                                                     Attachment 2


                     United States Department of the Interior
                             BUREAU OF LAND MANAGEMENT
                                       Washington, D.C. 20240
                                        http://www.blm.gov




In Reply Refer To:                      JUL 2 2 2013
1245 (OC-662)


Memorandum

To:           Kimberly Elmore
              Assistant Inspector General for Audits, Inspections, and Evaluations

From:         NeilKornze         {)~              ~
              Principal Deputy Di;"(t~r

Subject:      Office of the Inspector General Evaluation Draft Report - Bureau of Land
              Management's Branch ofNational Acquisitions, National Operations Center (Report
              No. C-EV-BLM-0007-2011 , June 12, 2012)

Thank you for the opportunity to review and comment on the Office of Inspector General (OIG)
draft report Bureau of Land Management's Branch ofNational Acquisitions, National Operations
Center (Report No. C-EV-BLM-0007-2011).

When the OIG began its review, it issued a notice of preliminary findings and recommendations
(NPFR) in June 2012 related to contract administration at the National Operations Center (NOC).
At that time, the OIG determined that the Bureau of Land Management (BLM) was not
adequately following procedures and lacked proper documentation for its contracts. In response
to these NPFRs, the BLM began to address these issues and improve consistency and compliance
in accordance with acquisition regulations and policies. At present, the BLM believes it has
taken significant steps to address the NPFRs that are reflected as final recommendations in this
draft report.

The BLM concurs with the four recommendations. Attachment 1 provides a summary of the
actions taken by the BLM to address the recommendations and further improve processes and
systems.

If you have any questions about this response, please contact Timothy Riley, Division Chief,
Business Service, National Operations Center, at (303-236-6455) or LaVanna Stevenson, BLM
Audit Liaison Officer, at (202) 912-7077.

Attachment




                                                                                                8
 Response to the Office of the Inspector General Draft Evaluation Report - Bureau of Land
        Management's Branch of National Acquisitions, National Operations Center
                            (Report No. C-EV-BLM-0007-2011)

Recommendation 1: Create a standard operating procedure (SOP) outlining the contract
administration process. The procedure should specify the duties, responsibilities, and limitations
for contracting officers (CO), contracting officer representatives (COR), and other project
officers. The procedure should specify each major contract type: who does what, how it is to be
done, and when it is to be done.

Response: The BLM concurs with this recommendation. The BLM has developed templates
and checklists outlining specific duties and responsibilities for COs, CORs and other project
officers for the range of acquisition tools and associated processes. The BLM has also
conducted training for its NOC acquisition staff, as well as the entire BLM acquisition
community in acquisition procedures and policies. Additionally, the BLM is in the process of
finalizing standard templates, guides and SOPs for the following business processes:
    • Source Selection Decision guide - The process and steps necessary to document the
        source selection process.
    • Modification Language template - Standard language to be used on all contract
        modifications.
    • IAA Determinations and Findings (D&F) template - Standard format for D&F for IAAs.
    • Records Management processes - SOP for office records management system.

Target Date: October 5, 2013.

Responsible Official: Ruth Welch, Director, National Operations Center

Recommendation 2: Expand and improve the training and job aids provided to COs, CORs,
and project officers. Training should address Federal Acquisitions Regulation (FAR)
principles as well as local procedures; job aids could include document templates and
samples.

Response: The BLM concurs with the recommendation. In addition to the mandatory training
that is required for all of the acquisition workforce to maintain their certifications, the BLM has
sponsored training classes tailored for the BLM acquisition workforce but also available for
other bureaus to use through DOl-Learn. Training opportunities in 2013 included:
         • Price Negotiation Memorandum and Source Selection Training presented by Office
            ofthe Solicitor.
         • Small Business Administration (SBA) training presented by the SBA.
         • The Green Purchasing Plan and Utility Task Vehicle Purchasing Standards.
         • Contractor Performance and Reporting System Training.
         • Fed Bid Training.
         • Miscellaneous Obligation Training.
                                                                              Attachment 1-1

                                                                                                      9
In addition, the BLM has developed several outreach tools to enhance understanding of and
compliance with SOPs for the acquisition cycle and processes. The BLM has also completed an
online COR training class which will be available on an on-going basis for BLM's COs, CORs,
and project managers.

Target Date: Completed.

Responsible Official: Ruth Welch, Director, National Operations Center

Recommendation 3: Implement a records management plan for contract files to prevent
contract file loss and to provide reference by contract type, and the documentation which is
required for a complete contract record. This could include a plan to capture documents
electronically for a more efficient search, retrieval, and review.

Response: The BLM concurs with this recommendation. The BLM is in the process of
finalizing SOPs for Records Management to ensure that contract files are complete and have
required documentation. These SOPs will be issued processes- SOP for office records
management system.

Target Date: October 5, 2013.

Responsible Official: Ruth Welch, Director, National Operations Center

Recommendation 4: Perform periodic reviews to ensure that contract files are complete and
that contract actions have been properly performed. Include a follow-up process to ensure
corrective actions are taken when needed.

Response: The BLM concurs with this recommendation and considers it closed based on the
actions outlined below. The BLM has put in place several reviews and processes to include:
• Internal Review Process: An internal review process was conducted for certain contracts
    and as a result, the CO and supervisor have established a review process to ensure contracts
    are in line with appropriate procedures.
• Random Reviews: Contracts are subject to random reviews by the section chiefs and
    findings are communicated to staff. Corrective action is undertaken immediately.
• Setting Expectations: We have established expectations of contract requirements and
    execution with customers and the contracting staff who are improving the overall acquisition
    program.

Target Date: Completed.


                                                                               Attachment 1-2




                                                                                                10
                                                                              Attachment 3


Status of Recommendations

In the Bureau of Land Management’s (BLM) response, BLM concurred with all 4
recommendations (see Attachment 2).


                                                            We will refer these
                                                            recommendations to the
                                   Resolved but not fully
              1, 3                                          Assistant Secretary for Policy,
                                      implemented.
                                                            Management and Budget for
                                                            implementation tracking..



                                       Resolved and
              2,4                                           No further action is required..
                                       Implemented.




                                                                                         11
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
